r
V

IN THE DISTRICT COURT OF APPEAL
OF FLORIDA
THIRD DISTRICT
NOVEMBER 15,2018
DIMITRI JONTHEL PATTERSON,
Appellaiit(s)/PetitiGner(s),
vs.
THE STATE OF FLORIDA
Appellee(s)/Respondent(s),

CASE NO.: 3D1&-2229,3D18-2S28
L.T. NO.:

17-16392

On November 5, 2018, Petitioner Dimitri Patterson filed, pro se, two
emergency petitions in this Court mile not entirely clear from Petitioner’s pro se
filings it appears tiiat in rase no. 3D18-2228 Petitioner is seeking a writ of Habeas
corpus, asserting that he is entitled to immediate discharge in Iowa* tribunal case no.
F.17-16392 because of an alleged speedy trial rule violation. In case no. 3D18-2229, it
appears 1hat Petitioner is seeking a writ from this Court prohibiting Hon. Oscar
Rodriguez-Fonts from presiding over lower tribunal case no. FI7-16392.
On November 7, 2018, this Court issued an order holding the instant
petitions in abeyance for a period not to exceed thirty days to allow both: (1) the trial
court to adjudicate Petitioner’s pending motions, and (2) Petitioner to file with this
Court an appropriate appendix in each case, including a copy of any trial court order
of Which Petitioner seeks review, hi addition, because it was unclear whether
Petitioner is represented by tin attorney

lower tribunal case no. FI7-16392, tiiis

Supreme Court of jfUmtja
TUESDAY, DECEMBER 11,2018
CASE NO.: SC18-2020
Lower Tribunal No(s).:
132017CF0163920001XX; 132015MM0345480001XX
DIMITRI PATTERSON

Petitioners)

vs.

MIAMI-DADE CORRECTIONS
AND REHABILITATION
DEPARTMENT
Respondents)

Petitioner has submitted a petition for writ of habeas corpus. The petition is
hereby transferred to the Circuit Court of the Eleventh Judicial Circuit in and for
Miami-Dade County, Florida, for consideration in the context of case number
132017CF0163920001XX. The transfer of this case should not be construed as an
adjudication or comment on the merits of the petition, nor as a determination that
the transferee court has jurisdiction or that the petition has been properly
denominated as a petition for writ of habeas corpus. The transferee court should
not interpret the transfer of this case as an indication that it must or should reach
the merits of the petition. Any determination concerning whether a filing fee shall
be applicable to this case shall be made by the transferee court Any and all
pending motions in this case are hereby deferred to the transferee court.
Any future pleadings filed regarding this case should be filed in the above
mentioned circuit court at 73 West Flagler Street, Suite 242, Miami, Florida 33130.
NOT FINAL UNTIL TIME EXPIRES TO FILE REHEARING MOTION AND,
IF FILED, DETERMINED.
ANY MOTION FOR REHEARING MUST BE FILED WITHIN SEVEN DAYS.
A RESPONSE TO THE MOTION FOR REHEARING MAY BE FILED WITHIN
FIVE DAYS AFTER THE FILING OF THE MOTION FOR REHEARING. NOT
FINAL UNTIL THIS TIME PERIOD EXPIRES TO FILE A REHEARING
MOTION AND, IF FILED, DETERMINED.

*

Court also directed the State to notify the Court as to whether Petitioner is represented
bylegal counsel in the lower proceeding and, if so, the name of such counsel.
On November 13, 2018, the State filed a response to the Court’s
November 7, 2018 order notifying the Court Aal; Petitioner’s listed counsel, Bany
Witlin, has not been officially discharged in.lower tribunal case no, F17-16392, and
that Petitioner’s request to fire Mr. Witlin as his attorney and act as his own counsel
remains pending in thie lower court proceeding.
Because Petitioner is currently represented by counsel In lower tribunal
case no. F17-16392, the instant pro se petitions in this Court (3D18-2228 and 3D18v.

> So. 2d 472 (Fla. 2003) (concluding

that as a general rule, a pro se pleading by a represented criminal defendant is a
“nullify’). Accordingly, we dismiss Petitioner’s pro se petitions (3D18-2228 and
3D18-2229) as unauthorized. Petitioner’s emergency motion to expedite ruling on the
petition for writ of habeas corpus (3D18-2228) is denied as moot
SALTER, SCALES and LINDSEY, JT_, concur.

cc: Jeffrey R. Geldens
Hoi Oscar Rodriguez-Fonts
ns

Office Of Attorney General
Miairii-Uade Clerk

Dimitri Jonduel Patterson

